NO. 19-1054
IN THE

Supreme Court of the United States
CHRISTA PIKE,
Petitioner,
V.

GLORIA GROSS, WARDEN,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar,
opposing counsel have consented to electronic service, and that, on this 18th day
of May, 2020, copies of the Reply Brief for the Petitioner were sent to:
Richard Davison Douglas
State of Tennessee Attorney General
P.O. Box 20207
Nashville, TN 37202
davey.douglas@ag.tn.gov
Respectfully submitted,

Arn Jacobsen

